U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Valueland Auto Sales, Inc., & Ron Benit v. United States of America,
S.Ct. No. 21-211
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 11,
2021, and placed on the docket on August 13, 2021. The government’s response is due on
September 13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 13, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0211
VALUELAND AUTO SALES, INC., & RON BENIT
USA

DAMION MICHAEL CLIFFORD
ARNOLLD & CLIFFORD LLP
115 W. MAIN STREET
4TH FLOOR
COLUMBUS, OH 43215
614-460-1600
DCLIFFORD@ARNLAW.COM

